                            OFFICE OF
                     THE INSPECTOR GENERAL


                         U.S. NUCLEAR
                    REGULATORY COMMISSION



                 Review of NRC’s Workforce Planning

                     OIG-01-A-15       September 17, 2001




                       AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                              NRC’s website at:
                   http://www.nrc.gov/NRC/OIG/index.html
                                             September 17, 2001




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      REVIEW OF NRC’S WORKFORCE PLANNING (OIG-01-A-15)


Attached is the Office of the Inspector General’s audit report titled, Review of NRC’s Workforce
Planning.

This report reflects the results of OIG’s review of the agency’s workforce planning efforts.
Overall, we found that NRC is making a concerted effort to strengthen its approach to
workforce planning; however, the agency lacks a comprehensive, agencywide workforce plan.
As a result, NRC needs to take further steps to integrate, communicate, and institutionalize its
agencywide workforce planning efforts.

At an exit conference on September 6, 2001, NRC officials generally agreed with the report’s
findings and recommendations. While NRC officials chose not to provide a formal, written
response for inclusion in the report, they did provide editorial suggestions, which were
incorporated where appropriate.

If you have any questions, please contact Corenthis Kelley at 415-5977 or me at 415-5915.

Attachment: As stated

cc:     John Craig, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
B. Garrick, ACNW
D. Powers, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
S. Reiter, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
I. Little, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, OSP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, RES
J. Johnson, NRR
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
E. Merschoff, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                                              Review of NRC’s Workforce Planning


EXECUTIVE SUMMARY

    BACKGROUND

          One of the most serious management challenges facing the U.S. Nuclear
          Regulatory Commission (NRC) is the maintenance of a highly competent staff to
          carry out the agency’s public health and safety mission. This effort, known as
          workforce planning, is a systematic process for identifying the human capital
          required to meet organizational goals and for developing strategies to meet
          those requirements. Ultimately, workforce planning should provide managers
          with a framework for making staffing decisions based on the organization’s
          mission, strategic plan, budgetary resources, and desired workforce
          competencies.

          About 15 percent of NRC’s staff is eligible to retire; the percentage of retirement
          eligibles is 20 percent or greater in some of the technical offices.

    PURPOSE

          The objectives of this audit were to determine (1) whether NRC has the requisite
          resources and senior management support to carry out and sustain a successful
          workforce planning effort, and (2) whether NRC has an agencywide workforce
          plan that will ensure the agency has the necessary staff to continue to meet its
          safety mission.

    RESULTS IN BRIEF

          NRC is making a concerted effort to strengthen its approach to workforce
          planning; however, the agency lacks a comprehensive, agencywide workforce
          plan. That is, NRC has not yet fully integrated workforce planning in its budget
          process, communicated its approach throughout the agency, or institutionalized
          its efforts in a holistic plan that coordinates the various efforts underway. Until
          this occurs, NRC is placing the future of its workforce planning efforts at risk and
          could potentially jeopardize the agency’s ability to maintain the workforce needed
          to meet its mission.

    RECOMMENDATIONS

          This report makes five recommendations to the Executive Director for
          Operations to integrate, communicate, and institutionalize workforce planning at
          NRC.




                                            i
                                                         Review of NRC’s Workforce Planning



AGENCY COMMENTS

     At an exit conference on September 6, 2001, NRC officials stated general
     agreement with the report’s findings and recommendations. While NRC officials
     chose not to provide a formal written response for inclusion in the report, they did
     provide editorial suggestions, which were incorporated where appropriate.




                                      ii
                                                     Review of NRC’s Workforce Planning


ABBREVIATIONS AND ACRONYMS

EPA     U.S. Environmental Protection Agency

ERB     Executive Resources Board

FY      fiscal year

GAO     U.S. General Accounting Office

HR      Office of Human Resources

NAPA    National Academy of Public Administration

NRC     U.S. Nuclear Regulatory Commission

NTEU    National Treasury Employees Union

OIG     Office of the Inspector General

OPM     U.S. Office of Personnel Management

PBPM    planning, budgeting, and performance management




                                          iii
                                   Review of NRC’s Workforce Planning




[Page intentionally left blank.]




               iv
                                                                                     Review of NRC’s Workforce Planning


TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

    ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

    I        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

    II       PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

    III      FINDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                       W ORKFORCE PLANNING NEEDS TO BE FULLY INTEGRATED, COMMUNICATED
                       AND INSTITUTIONALIZED

    IV       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

    V        AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


    APPENDICES

    A.       SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

    B.       WORKFORCE PLAN COMPONENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13




                                                            v
                                   Review of NRC’s Workforce Planning




[Page intentionally left blank.]




               vi
                                                                                   Review of NRC’s Workforce Planning


I. BACKGROUND

                    As identified by the U.S. Nuclear Regulatory Commission’s (NRC) Inspector
                    General, the U.S. General Accounting Office (GAO), and the NRC Chairman and
                    other senior managers, one of the most serious management challenges facing
                    the agency is the maintenance of a highly competent staff to carry out the
                    agency’s public health and safety mission. This effort, known as “human capital
                    management” or “strategic workforce planning,” is defined by the National
                    Academy of Public Administration (NAPA)1 as a systematic process for
                    identifying the human capital required to meet organizational goals and for
                    developing the strategies to meet these requirements.2 Ultimately, workforce
                    planning should provide managers with a framework for making staffing
                    decisions based on the organization’s mission, strategic plan, budgetary
                    resources, and desired workforce competencies. Workforce planning is
                    fundamental to strategic business management.

                    Demographics and External Factors

                    Although NRC’s demographics and changes in educational opportunities for
                    nuclear-related professions have brought this challenge into the spotlight at the
                    agency, this issue is not unique to NRC. According to a recent GAO report on
                    human capital management,3 human capital shortfalls are eroding the ability of
                    many agencies — and threatening the ability of others — to effectively,
                    efficiently, and economically perform their missions. With regard to NRC
                    specifically, GAO noted that the agency’s ability to maintain the skills needed to
                    achieve its mission and fill the gaps created by growing retirement eligibles could
                    be threatened by the decline in university enrollments in nuclear engineering and
                    other fields related to nuclear safety. About 15 percent of NRC’s staff is eligible
                    to retire in fiscal year (FY) 2001 with the percentage of retirement eligibles
                    greater in some of the agency’s technical offices. Over the past 5 years, NRC
                    employees retired, on average, about 4.5 years after becoming eligible to retire.
                    See the following table for retirement profile information about NRC overall,
                    regional offices, and specific headquarters offices.




        1
         Building Successful Organizations: A Guide to Strategic Workforce Planning, National Academy of Public
Administration, Center for Human Resources Management, May, 2000.
        2
            For purposes of this report, OIG uses the term “workforce planning.”

        3
         GAO-01-263 High-Risk Update, Strategic Human Capital Management: A Governmentwide High-Risk
Area, January 2001.

                                                           1
                                                                                 Review of NRC’s Workforce Planning

Table. Retirement Profile for NRC Overall, Regional Offices,
             and Selected Headquarters Offices
                    (Data as of 07/31/01)

                                                        Staff Eligible for Retirement


   Organizational        FTE Ceiling       FY 2001               FY 2003              FY 2005
                            (Full-time
   Component               equivalent)
                                         count       percent   count   percent      count   percent



   NRC Overall              2,776        403            15     621        22        859        31



   Region I                  214         18              8     36         17         56       26



   Region II                 197         18               9    35         18         44       22



   Region III                203         15               7    27         13         42       21



   Region IV                 165         16             10     25         15         39       23



   Office of Nuclear         580         121            21     160        28         209      37
   Reactor
   Regulation

   Office of Nuclear         343         39             11     62         18         94       28
   Material Safety
   and Safeguards

   Office of Nuclear         180         44             24     67         36         83       45
   Regulatory
   Research


   Notes:       Permanent Appointments Only
                Eligibility as of 9/30 of Fiscal Year
                Out Year Percentages Based on FY 2002 FTE Ceilings
                Eligibility Figures are Cumulative




Past and Present Workforce Planning Efforts

Today, NRC participates in a variety of workforce planning initiatives, some of
which have been ongoing for a number of years and others which are either new
or have been rejuvenated from prior efforts. These workforce planning efforts




                                                 2
                                                                           Review of NRC’s Workforce Planning

                 include recruitment and retention strategies, training opportunities, succession
                 planning initiatives, and work environment improvements.

                 NRC has also experienced some pauses over the years in its agencywide
                 workforce planning efforts. In 1997, agency staff provided the NRC Chairman
                 and Commissioners (the Commission) with a preliminary action plan for
                 projecting and maintaining skills requirements, availability, and staffing. The
                 plan included a process for developing baseline assessment data regarding core
                 capabilities needed to carry out fundamental agency functions. While the
                 Commission approved this plan, it found it too complex and requested that the
                 staff consider a simpler approach. In 1998, the agency staff responded with an
                 alternative approach to identifying core capabilities and a preliminary schedule
                 for implementation. Also in 1998, the agency staff provided a methodology for
                 assessing the availability of technical skills at the NRC. However, by 1999, the
                 staff had reconsidered its conceptual basis of the core competency requirements
                 model and its process for identifying core skills in favor of approaches for
                 addressing skill needs in individual office and regional operating plans.

                 In October 2000, in response to NRC’s aging workforce with a high retirement
                 eligibility among the technical staff, Chairman Meserve identified the need for a
                 holistic workforce planning effort. He tasked the staff to provide a plan to the
                 Commission by the end of January 2001 to assess and maintain the agency’s
                 scientific, engineering, and technical core competencies. To address the
                 Chairman’s request, the agency entered into a contractual arrangement with
                 Arthur Andersen LLP.4 Through this effort, facilitated by the Office of Human
                 Resources (HR), the agency developed and is working through an action plan for
                 maintaining core competence. This effort is currently focused on conducting a
                 gap analysis. That is, NRC will identify what skills it has — its bench strength —
                 against what skills it will need and then address the gaps. The agency is in the
                 early stage of this effort and, in June 2001, pilot tested a survey instrument in
                 three branches within the Offices of Nuclear Reactor Regulation, Nuclear
                 Material Safety and Safeguards, and Nuclear Regulatory Research. HR will be
                 meeting with its contractor to develop a lessons learned from the pilot survey.
                 The intent is to eventually roll out the survey agencywide, collect the data, store
                 it in an electronic database, and update it on a regular basis. A key HR official
                 does not expect this effort to yield agencywide results for about a year.

                 Chairman Meserve told the Office of the Inspector General (OIG) audit team that
                 he is supportive of HR’s gap analysis effort, but that when he tasked the staff to
                 develop an action plan, he had anticipated more concrete measures for




        4
        NRC’s delivery/task order under General Services Administration contract GS-15F-0056K with Arthur
Andersen is currently scheduled to end on September 30, 2001.

                                                      3
                                                               Review of NRC’s Workforce Planning

           addressing NRC’s current needs. As a result, he has been meeting periodically
           with the senior managers involved with the assessment of technical core
           competencies to facilitate specific actions. While the Chairman stated that he
           intends to continue meeting with the senior managers, he said that NRC now has
           management’s attention at the highest levels, a sense of the significance of the
           issue, and a process for workforce planning.

           HR has undertaken other actions to strengthen NRC’s approach to workforce
           planning as well. For example, HR officials have met with the major program
           office directors to discuss their workforce planning needs and plot out strategies
           to address those needs. HR strengthened its recruitment program by bringing in
           new staff to focus on recruitment strategies and is moving towards the
           implementation of an online system for soliciting and responding to job
           applicants. The office developed and submitted an agencywide budget request
           for human capital initiatives. Other activities include expanding NRC’s student
           intern program and seeking and receiving permission from the Office of
           Personnel Management (OPM) for NRC to waive the dual compensation
           reduction to hire Federal retirees in certain situations.

II. PURPOSE

           The objectives of this audit were to determine (1) whether NRC has the requisite
           resources and senior management support to carry out and sustain a successful
           workforce planning effort, and (2) whether NRC has an agencywide workforce
           plan that will ensure the agency has the necessary staff to continue to meet its
           safety mission. Appendix A contains the scope and methodology of this review.

III. FINDING

     WORKFORCE PLANNING NEEDS TO BE FULLY INTEGRATED, COMMUNICATED,
     AND INSTITUTIONALIZED

           NRC is making a concerted effort to strengthen its approach to workforce
           planning; however, the agency lacks a comprehensive, agencywide workforce
           plan. That is, NRC has not yet fully integrated workforce planning in its budget
           process, communicated its approach throughout the agency, or institutionalized
           its efforts in a holistic plan that coordinates the various efforts underway. Until
           this occurs, NRC is placing the future of its workforce planning efforts at risk and
           could potentially jeopardize the agency’s ability to maintain the workforce needed
           to meet its mission.




                                            4
                                                   Review of NRC’s Workforce Planning



NRC’s Focus on Workforce Planning

Senior managers play a vital role in workforce planning. They are responsible
for recognizing the need for workforce planning, demonstrating a commitment to
it, providing the resources to make it happen, and communicating the agency’s
shared vision. Effective workforce planning requires senior managers to
continually monitor and refine the agency’s workforce planning approach to
ensure ongoing effectiveness and continuous improvement.

As noted in the “Background” section of this report, NRC senior managers have
demonstrated support for workforce planning as evidenced by:

6      The Chairman’s October 2000 call for an action plan to maintain core
       competence and his meetings with NRC officials concerning specific
       actions to address gaps already identified.

6      HR officials’ meetings with the major program office directors to discuss
       their workforce planning needs and plot out strategies to meet the needs.

6      HR’s development and submission of an agencywide workforce planning
       budget, which the Chairman and Commission approved, and other
       specific measures undertaken by HR to strengthen workforce planning.

In addition, NRC office directors and regional administrators have been pursuing
some workforce planning initiatives on their own for the past several years. For
example, some program offices and each regional office conduct their own skills
surveys and gap analyses to assess staffing needs and devise solutions. Other
workforce planning initiatives include (1) providing tuition reimbursement for
college courses, (2) paying attention to the needs and concerns of recent hires
to facilitate a smooth transition to NRC employment, (3) formal training programs
for interns, (4) formal programs to develop agency managers, (5) establishing
relationships with colleges and universities as a recruitment strategy, (6)
mandatory training plans that staff and managers develop and adhere to, and (7)
focused diversity recruiting. In addition, individual office efforts include
mentoring programs for new staff, the establishment of a diversity panel to serve
as a forum to which staff can raise issues, an initiative for staff empowerment,
focused training plans, and the use of rotational assignments.

NRC’s Chairman, Commissioners, and senior managers continue to exhibit high
interest and involvement in workforce planning issues. For example, several
senior managers recently participated in a recruitment trip to the University of
Mayaguez in Puerto Rico. During this trip, the agency made 26 job offers for
technical, entry level positions. Of the 26 offers, 12 were accepted; all acceptors
were Hispanic and 5 were female. NRC senior managers expressed their



                                 5
                                                    Review of NRC’s Workforce Planning

satisfaction regarding the success of this particular recruitment effort, but senior
managers recognize the need for continued emphasis with regard to staff
diversity. Such focus on diversity is an integral part of the agency’s corporate
management strategy to “sustain a high-performing, diverse workforce.”

While NRC has many individual projects underway, more needs to be done for
NRC to have a comprehensive, agencywide workforce plan.

Workforce Planning Not Fully Integrated in Budget Process

Workforce planning should be linked to the agency’s strategic plan and budget
because resource investment is critical for success. This linkage helps to ensure
that workforce planning becomes a routine consideration in the way an agency
conducts business.

NRC senior management is committing resources to workforce planning and
indicates that NRC intends to integrate workforce planning into its planning,
budgeting, and performance management (PBPM) process for FY 2004. The
PBPM process includes the following four basic cycles:

       6       Setting strategic direction.
       6       Determining resources and planning accomplishments.
       6       Measuring and monitoring performance.
       6       Assessing performance.

HR is currently participating in a contractor facilitated process so that the
agency can begin integrating its workforce planning efforts with the
PBPM process. In addition, the agency’s FY 2002 and proposed FY
2003 budgets contain funding ($4 million and $4.7 million, respectively) to
support a variety of workforce planning initiatives (e.g., recruitment and
retention bonuses). HR is trying to move NRC to an agencywide
workforce planning budget with initiatives and programs spanning the
agency. However, several NRC offices and regions are still more
focused on and have budgeted for their individual workforce planning
needs. It will take senior management emphasis to create a
comprehensive, agencywide workforce plan (Recommendation 1).

Currently, there are several output measures that are related to the workforce
planning effort included in the agency’s performance plan. However, additional
measures are needed to help the agency assess its progress in achieving
specific workforce planning goals. According to the agency’s strategic plan for
FY 2000 through FY 2005, the next strategic plan will contain measures for
NRC’s corporate management strategy to “sustain a high-performing, diverse
workforce.” However, the next plan is not due until 2003 (Recommendation 2).




                                  6
                                                   Review of NRC’s Workforce Planning



Mission goals affect the entire agency and senior managers are responsible for
involving employees both directly and through their employee organizations in
workforce planning efforts. Staff must be fully aware of the benefits of workforce
planning.

NRC senior managers recognize the need for workforce planning and have
committed the resources; however, they have no formal mechanism for
communicating workforce planning goals and initiatives below the senior
management level. For example, an announcement has not been sent to the
entire NRC workforce concerning the agency’s shared vision for workforce
planning. One Commissioner observed that NRC employees may not be aware
of specific workforce planning information such as the use of retention bonuses.

In moving forward with the gap analysis pilot survey instrument, HR met with
survey participants to explain how the data would be used. HR also involved the
local chapter of the National Treasury Employees Union (NTEU) when the pilot
survey instrument was ready for roll-out. NTEU representatives attended
participant meetings with HR and endorsed the survey instrument. However,
NTEU leaders shared their belief with the OIG audit team that, while the gap
analysis pilot may yield beneficial results for union membership, they are
concerned about NRC workforce planning efforts. NTEU leaders also conveyed
their wish that the agency more actively include them early on with workforce
planning efforts.

NRC has a communications plan focused on the gap analysis survey. The
agency is generally following the plan, but some action items have been delayed
due to changes in the agreement with NRC’s workforce planning contractor. For
example, the gap analysis pilot survey was administered to about 90 staff
members in June. At the time this report was written, participants had not
received feedback from HR as to the results or success of the pilot test.
However, at the audit exit conference on September 6, 2001, agency officials
told OIG that a feedback session is scheduled for September 11. Senior
management should continue to take steps to assure the staff is fully aware of
the benefits of workforce planning (Recommendation 3).

Workforce Planning Not Institutionalized in Holistic Plan

Noted leaders in the provision of Federal workforce planning guidance — NAPA,
GAO, and OPM — propose similar themes in terms of the need for and
components of a workforce plan (see Appendix B for NAPA’s list). These
themes include the need to involve a multidisciplinary team of agency employees


in developing an explicit workforce plan, which includes performance measures
to indicate whether goals are being achieved.


                                 7
                                                   Review of NRC’s Workforce Planning

While there are numerous promising workforce planning measures already
underway — some in their initial stages — at NRC, there is no assurance that
the current agencywide workforce planning effort promises to be a lasting one.
First, there is no indication that NRC has an overarching agencywide plan for
workforce planning. Such a plan would help to coordinate the effort and ensure
continuation and assessment of the numerous workforce planning activities
underway. NRC does have a number of documents that reflect pieces of NRC’s
workforce planning philosophy — including the (1) agency’s strategic plan for FY
2000 through FY 2005, (2) agency’s action plan for maintaining core
competence that was developed in response to the Chairman’s call for such a
plan, (3) briefing documents for the Commission and Chairman, (4)
communications plan that corresponds to the gap analysis survey, (5) individual
office operating plans, and (6) NRC Management Directives. However, these
documents do not reflect an overall approach to workforce planning, but, rather,
describe various
aspects of it. In addition to these written documents, various NRC officials
described their own vision and plans related to workforce planning, but these are
not necessarily reflected in an overall plan. For example, it is not yet clear when
and how gap analysis data will be incorporated into the agency’s recruiting
efforts, which currently rely on a separate data analysis effort. Senior managers
need to ensure these efforts are coordinated through a comprehensive,
agencywide workforce plan (Recommendation 4). At the audit exit conference,
agency officials told OIG that following the pilot gap analysis effort currently
underway, an agencywide implementation plan will be developed to help
coordinate the effort and ensure continuation and assessment of the numerous
workforce planning activities underway.

Second, NRC has not created a multidisciplinary group to help promote
workforce planning, facilitate sharing of information across office lines, and
ensure continued involvement and commitment to the effort. For the recent,
Chairman-initiated workforce planning efforts, HR managers served as the
gatherers and compilers of information concerning the major program office
workforce planning needs. And, while senior managers report that they share
information with each other informally, they said there is no formal mechanism to
facilitate the sharing of office initiatives, techniques, and lessons learned.

During the course of this audit, OIG contacted several Federal agencies to learn
about their workforce planning efforts. Representatives from these agencies
expressed the need to obtain buy-in for workforce planning efforts. One agency,
the U.S. Environmental Protection Agency (EPA), developed an internal
workforce planning strategy document based on input from a multidisciplinary


team. This document lays out specific workforce planning goals, strategies to
accomplish the goals, and responsible parties.




                                 8
                                                                 Review of NRC’s Workforce Planning

             While it requires more than just a plan to ensure that an agency accomplishes its
             workforce planning goals, the EPA document and methodology for its
             development seem well aligned with the document’s assertion that high
             performing organizations require that everyone take ownership for human
             resources. According to EPA, its workforce planning strategy is not an event,
             but an ongoing campaign. Likewise, NRC would benefit from a multidisciplinary
             team or steering committee that helps direct and coordinate agency workforce
             planning activities (Recommendation 5). At the audit exit conference, agency
             officials told OIG that NRC currently uses its Executive Resources Board (ERB)
             to address workforce planning issues, and intends to use this group to help
             promote workforce planning.

             Summary

             Drivers behind NRC’s current agencywide workforce planning effort include
             demographic data concerning Federal employee retirement eligibility and the
             awareness that workforce planning is a major challenge that NRC and the entire
             Federal Government need to address. NRC needs to take further steps to
             integrate, communicate, and institutionalize its agencywide workforce planning
             efforts to ensure that these efforts will continue once the heightened attention to
             this issue wanes. Without such measures, NRC could find itself unable to
             compete with the private sector and other Federal agencies for staff needed to
             maintain core competence. Furthermore, NRC would miss several key
             opportunities that could help to make workforce planning a lasting process.

IV.   RECOMMENDATIONS

      OIG recommends that the Executive Director for Operations:

      1.     Ensure that workforce planning is fully integrated into the planning, budgeting,
             and performance management process.

      2.     Establish performance measures related to workforce planning.

      3.     Develop and implement a communications plan for an agencywide workforce
             planning approach.

      4.     Develop a holistic workforce plan that brings together the various efforts
             underway and tools available to help managers with workforce planning.




      5.     Use a multidisciplinary team or steering committee to coordinate the workforce
             plan and to facilitate the sharing of information throughout the agency.



                                              9
                                                                Review of NRC’s Workforce Planning


V.   AGENCY COMMENTS

     OIG provided this report in draft form to agency officials and discussed its content at an
     exit conference on September 6, 2001. Agency officials generally agreed with the
     content of the report and with the report’s recommendations and chose not to provide a
     formal written response for inclusion in the report. However, they offered comments
     pertaining to performance measures, the ERB, and agency workforce planning
     activities. These comments and views expressed by attending officials have been
     incorporated in this report, as appropriate.




                                             10
                                                                                   Appendix A
                                                            Review of NRC’s Workforce Planning


SCOPE AND METHODOLOGY

        This audit analyzed the components of a workforce plan, assessed the agency’s
        efforts to date, and determined whether these efforts appeared to be reasonable
        and sustainable.

        To evaluate the components of and provide a definition for workforce planning,
        the Office of the Inspector General (OIG) reviewed legislative criteria; guidance
        from the U.S. General Accounting Office, U.S. Nuclear Regulatory Commission
        (NRC), the National Academy of Public Administration, and others; current
        articles on the subject; and practices in other Federal agencies, including the
        U.S. Environmental Protection Agency, the U.S. Internal Revenue Service, and
        the U.S. Office of Veterans Affairs. OIG also examined NRC’s definition for
        workforce planning.

        To (1) determine whether NRC has the requisite resources and senior
        management support to carry out and sustain a successful workforce planning
        effort and (2) identify NRC’s workforce planning efforts and the status of these
        efforts, OIG

        6      Examined the proposed agencywide workforce planning budget and
               other related documents.

        6      Interviewed the Chairman, Commissioners, and senior managers in
               headquarters and the regional offices to assess their level of support for
               and participation in workforce planning efforts.

        6      Interviewed staff in the Office of the Chief Financial Officer to learn about
               the process for distributing this budget and how spending will be tracked.

        6      Identified how workforce planning is expected to fit into the agency’s
               functioning over the long term, for example, how workforce planning will
               be integrated into the planning, budgeting, and performance
               management process.

        Through this process, OIG determined the agency’s involvement in workforce
        planning. OIG also collected current statistical information concerning the
        demographics of NRC employees and gathered information on past NRC
        workforce planning efforts.

        Management controls related to the audit objectives were reviewed and
        analyzed. Throughout the review, the audit team was aware of the possibility or
        existence of fraud, waste, or misuse in the program. OIG conducted the audit in
        accordance with Generally Accepted Government Auditing Standards from
        March 2001 through July 2001.


                                        11
                                                                        Appendix A
                                                 Review of NRC’s Workforce Planning

The major contributors to this report were Corenthis Kelley, Team Leader;
Sherri Miotla, Senior Management Analyst; and Judy Gordon, Senior
Management Analyst.




                               12
                                                                                 Appendix B
                                                          Review of NRC’s Workforce Planning


WORKFORCE PLAN COMPONENTS

       In its publication, Building Successful Organizations: A Guide to Strategic
       Workforce Planning, the Center for Human Resources Management at the
       National Academy of Public Administration identified information that is usually
       included in workforce plans. The Center used the Department of
       Transportation’s Workforce Planning Guide of April 1999 as its source for the
       following:

       6      Action Items. Examples of actions items include the completion of the
              remaining steps of the workforce-planning methodology, integration of
              the workforce data into the strategic plan, and submission of required
              workforce-planning data to management. Also included are dates for
              completing action items, and persons responsible for the development
              and implementation of the plan.

       6      Accountability Information. Details on how managers and employees
              will be held accountable, for example, including conducting workforce
              planning as a critical element in their performance plans.

       6      Integration Issues. Integration issues relate to items such as union
              involvement, training plans, recruitment plans, and coordination of gap
              and surplus issues across the organization’s sites and offices. An
              important issue is integration of the workforce plan with the development
              and implementation of the organization’s strategic plan.

       6      Communication Plans. Inform employees of the intent and content of
              the workforce plan.

       6      Critical Success Factors. Identify those factors that the workforce plan
              must address.

       6      Agency Goals. Identify the number of people and types of skills that will
              be needed to accomplish agency goals.

       6      Workforce Composition. Identify the composition of the current
              workforce.

       6      Workforce Needs Gaps. Identify gaps between current and future
              workforce needs.

       6      Workforce Requirements. Development of plans to address future
              workforce requirements, such as recruitment plans, training plans, and
              retention plans.



                                       13
